                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001




OFFICE OF THE
INSPECTOR GENERAL


                                         September 17, 2012


MEMORANDUM TO:             R. William Borchardt
                           Executive Director for Operations




FROM:                      Stephen D. Dingbaum /RA/
                           Assistant Inspector General for Audits


SUBJECT:                   MEMORANDUM REPORT: AUDIT OF NRC’S CONTRACT
                           ADMINISTRATION OF THE EPM CONTRACT
                           (OIG-12-A-18)

The Office of the Inspector General (OIG) conducted an audit of the Nuclear Regulatory
Commission’s (NRC) contract administration of the Enterprise Project Management
(EPM) contract. The audit objective was to evaluate NRC’s contract administration for
technology initiatives using EPM applications under Contract # NRC-DR-33-10-303.
OIG determined that there is a lack of effective internal controls governing administration
of the contract, specifically over the invoice review process. As a result, OIG identified
the need to update current agency guidance as well as to certify the accuracy of invoices
received from and payments made to the contract from the inception through the
closeout.

Please provide information on actions taken or planned on each of the recommendations
within 30 days of the date of this report. Actions taken or planned are subject to OIG
followup as stated in MD 6.1.

BACKGROUND

In November 2009, NRC entered into Contract # NRC-DR-33-10-303 to “execute its
vision for implementing Microsoft technologies throughout the enterprise in a timely,
                                                  Audit of NRC’s Contract Administration of the EPM Contract


efficient and secure manner.” NRC stated in the contract’s statement of work that it
currently employs a variety of Microsoft technologies, including EPM tools.1 NRC noted
that these EPM applications were integral to its business operations and justified the
need to obtain Microsoft consulting services to support product updates and upgrades as
the agency integrates all of the existing Microsoft technologies into its current operating
environment.

These EPM technologies cited by NRC in the contract are part of a Microsoft product
suite that helps organizations by providing tools for scheduling, tracking, and updating
projects. These applications are intended to help optimize resources, minimize costs,
facilitate collaboration, manage project scope, and deliver projects on time. Essentially,
Microsoft claims its EPM tools are designed to assist organizations in managing inter-
related projects to ensure that constituents, contractors, and stakeholders receive clear
and accurate progress reports on a regular basis.

The contract has an estimated ceiling of approximately $34 million and is an Indefinite
Delivery, Indefinite Quantity (IDIQ) contract with provisions for firm fixed price and labor
hour task orders.2 The contract was awarded on November 4, 2009, for 1 year with 4
option year periods of performance. As of July 9, 2012, NRC had spent $7,521,789.93.
The contract was implemented as an umbrella contract (frequently referred to as a
“blanket contract”), which provides the opportunity for multiple offices to obtain a variety
of services related to implementing Microsoft EPM technologies over the contract’s
designated period of performance. For example, the Office of Nuclear Reactor
Regulation, the Office of New Reactors, and the Office of Information Services use the
Microsoft EPM applications, including Microsoft Project Server, Microsoft Project
Professional, and SharePoint to electronically support various agency programs, such as
licensing programs and maintenance of existing systems.

Effective implementation of the contract requires a significant level of coordination
among participating offices. For example, the Office of Administration and the Office of
Information Services share responsibility for overseeing the contract’s implementation.
Specifically, the Office of Administration is responsible for facilitating the contract award
and closeout process and negotiating contract terms. These activities are managed by a
contract specialist. The Office of Information Services is tasked with routine contract


1
  EPM tools include applications such as Microsoft Project Server 2007, Microsoft SharePoint 2007, and
Microsoft SQL Server 2005.
2
  An Indefinite Delivery, Indefinite Quantity contract provides for an indefinite quantity, within stated limits,
of supplies or services to be furnished during a fixed period, with deliveries or performance to be
scheduled by placing orders with the contractor (Federal Acquisition Regulation (FAR) 16.504).
                                                        2
                                                Audit of NRC’s Contract Administration of the EPM Contract


oversight, including coordinating invoice reviews, monitoring funding, and initiating
contract modifications. These activities are managed by a Contracting Officer’s
Representative.3 Individual offices that use the contract have responsibility for assigning
a Task Order Manager to oversee the daily implementation of their respective task
orders.


OBJECTIVE

The audit objective was to evaluate NRC’s contract administration for technology
initiatives using EPM applications under Contract # NRC-DR-33-10-303.


RESULTS

NRC’s administration of the contract demonstrates a notable lack of internal controls,
specifically over the invoice review process. Invoice irregularities have occurred
because NRC has not provided staff with detailed guidance that sufficiently addresses
the specifics of reviewing and approving contract invoices, including those resulting from
IDIQ contracts. Consequently, NRC lacks assurance that contract costs are being
consistently and appropriately evaluated to determine whether they are allowable,
allocable, and reasonable. OIG reviewed 83 invoices totaling approximately $6.8 million
and found several irregularities. Anomalies included costs that were outside the invoice
billing period, inconsistent labor categories and contractor and job roles, as well as
status reports that did not match invoice billing periods. As a result, NRC is vulnerable to
potential fraud, waste, and abuse.

Federal and Industry Guidance Cites Need for Internal Controls

Federal guidance stresses the significance of implementing effective internal controls.
For example, the Government Accountability Office publication, Standards for Internal
Control in the Federal Government,4 stipulates that management is responsible for
establishing and maintaining internal controls to achieve the objectives of effective and
efficient operations, reliable financial reporting, and compliance with applicable laws and
regulations. It states that management and employees are responsible for establishing



3
  A Contracting Officer’s Representative assists in the technical monitoring or administration of a contract
(FAR Title 48, para 1.604).
4
  GAO/AIMD-00-21.3.1, issued November, 1999.
                                                      3
                                        Audit of NRC’s Contract Administration of the EPM Contract


and maintaining internal controls and creating an environment that sets a positive and
supportive attitude toward conscientious management and internal controls.
The Office of Management and Budget also stresses the importance of internal controls
in OMB Circular A-123, Management's Responsibility for Internal Control. According to
Circular A-123, internal controls help to ensure that desired results are achieved through
effective stewardship of resources while safeguarding assets and preventing and
detecting errors and fraud. Implementing effective internal controls is especially
important in the area of contract administration, where robust controls are needed to
provide reasonable assurance that contract funds are not being lost to improper
payments, waste, and mismanagement.

Private industry also recognizes the importance of internal controls and staff’s consistent
understanding of them. For example, in its June 2012 report, Evaluating and Improving
Internal Control in Organizations, the International Federation of Accountants noted,
“internal controls can only work effectively when they, together with the risks they are
supposed to modify, are clearly understood by those involved.”

Invoice Review Process Lacks Effective Internal Controls

Staff inconsistently review invoices

NRC’s invoice review process lacks effective internal controls. This is readily apparent in
how the staff inconsistently review invoices. For example, one staff member in the Office
of Administration indicated that it was up to the individual Task Order Managers to
devise a process to verify that money and hours charged are reasonable and that the
work was performed as claimed.

Nonetheless, some aspects of this process are described in Management Directive 11.1,
NRC Acquisition of Supplies and Services. For example, the management directive
requires the use of NRC Form 292, “Voucher Transmittal for Review and Approval Prior
to Payment,” to be used as part of the invoice review and approval process. This form
requires the Task Order Manager/Contracting Officer’s Representative to determine that
labor hours, travel, and other direct costs are “reasonable and commensurate for the
type and nature of work completed during the billing period.”

According to one Office of Information Services staff member directly involved in invoice
review and approvals, the staff member was directed to remove Form 292 from the
invoice review process because a key stakeholder in the Division of Contracts believed it
unnecessarily "cluttered up" the process. In contrast, a different staff member

                                             4
                                               Audit of NRC’s Contract Administration of the EPM Contract


responsible for reviewing contract task orders stated that the Form 292 is used as a key
part of that office’s review process. The staff member then produced a copy of the form
that had been completed during the review and approval of a current contract invoice.

The staff member in the Office of Information Services who was instructed not to use
Form 292 stated that their office was also instructed by staff in the Office of
Administration, Division of Contracts, not to use MD 11.1 because it was "obsolete.”
This same Office of Information Services staff member emphasized that, as a result,
there is no up-to-date guidance for invoice review beyond what is currently in use.

Invoice information cannot be adequately verified

Although NRC staff purport to review contractor invoices for “reasonableness” per NRC
guidance, the staff’s invoice review and approval practices do not include the steps
necessary to verify that the number of contractor labor hours billed are accurate and
allowable. Specifically, source documentation, such as applicable timekeeping records
or contractor time sheets, are not requested to verify the contractor labor hours invoiced.
When OIG asked a Task Order Manager about the verification process for contractor
invoices, the Task Order Manager indicated that it was that individual’s responsibility to
perform a detailed review of invoices, monthly status reports, and the number of hours
reported by the contractor. However, the staff member also noted that they did not
request or review timesheets to verify labor hours billed.

Agency Guidance Is Outdated and Not Specific

Management Directive 11.1, last revised in 2006,5 is the primary guidance document
concerning the administration of NRC contracts that total approximately $144 million in
expenditures for fiscal year 2012.6 Yet, this guidance is outdated and does not provide
staff with criteria that sufficiently addresses how to verify information contained in the
invoices that are reviewed and approved. Overall, the guidance sets a standard that
does not meet existing Federal and industry internal controls and best practices
standards.




5
  Discussions with NRC staff disclosed that MD 11.1 is currently under revision and is to be finalized by
May 2014.
6
  This estimate is current as of August 7, 2012.
                                                     5
                                       Audit of NRC’s Contract Administration of the EPM Contract


Guidance is out of date

Agency staff noted that the staff titles appearing in Management Directive 11.1, as well
as its appendices, are out of date. For example, titles such as Project Officer and
Contracting Officer are included, whereas Contracting Officer’s Representative is not
included at all, despite current Federal regulation endorsing the consistent use of the
term.

Moreover, the Invoice Workflow chart included with Management Directive 11.1 — which
depicts the invoice review process — is out of date and no longer representative of the
current process. For example, the Invoice Workflow chart indicates that contractor
invoices are primarily reviewed and approved by the Project Officer, Contract Specialist,
and Office of the Chief Financial Officer. However, OIG’s discussions with agency staff
disclosed that contractor invoices are currently being reviewed and approved by the
Contracting Officer’s Representative, the Task Order Manager from the program office
that requested the work, and the Contract Specialist from the Office of Administration.
Invoices and approvals are then forwarded to the Office of the Chief Financial Officer’s
payment services provider — the Department of the Interior, National Business Center
— for review to ensure all approvals have been submitted, accounting data is complete,
and for payment processing.

Guidance is not specific

Management Directive 11.1 does not provide staff with guidance that sufficiently
addresses the process for reviewing and approving invoices. For example, no specific
information is provided as to what information and/or supporting source documentation
should be reviewed during the invoice review process. In fact, the Management
Directive only generally states that the Project Officer [i.e., the Contracting Officer’s
Representative] should review each of the invoices or vouchers submitted by the
contractor to determine whether payment should be made, suspended, or disallowed.
Management Directive 11.1 also states that the Contract Specialist should review an
invoice to ascertain whether the contractor has expended a greater percentage of the
contract's funds than can be justified by the contractor's technical progress or if the
contractor's billing exceeds money obligated under the contract. The management
directive does not provide details beyond these vague instructions regarding how staff
should review invoices to ensure a consistent, coherent review process, particularly for
the multi-office coordination issues involved in overseeing a blanket contract. As one
staff member opined during a discussion with OIG, “…there are not sufficient controls in


                                            6
                                            Audit of NRC’s Contract Administration of the EPM Contract


place. Management Directive 11.1 was not designed to address the management of
blanket contracts.”

In addition, the contract itself does not provide any specific guidance in the form of terms
and conditions that enables the review of specific charges for each task order on the
invoices submitted by the contractor. Task orders are not specific to individual projects,
but include a list of all allowable activities under the scope of work. Staff explained to
OIG that work related to a new reactor construction database,7 for example, could be
charged under multiple task orders depending on the type of work performed. OIG
questioned whether it was possible for staff to account for specific costs if multiple task
orders were being used inconsistently. Staff confirmed that this was currently not
possible.

Waste, Fraud, and Abuse Risks

The lack of specific and up-to-date agencywide guidance for the administration of
contracts leaves the agency vulnerable to undue risk of waste, fraud, and/or abuse.
Specifically, without such guidance, NRC does not have adequate assurance that
amounts billed on contractor invoices are being consistently and appropriately reviewed
to ensure that invoiced costs are allowable, allocable, and reasonable. While OIG did
not find any conclusive evidence of waste, fraud, or abuse, auditors did note some
irregularities with regard to the contract invoices. OIG auditors reviewed 83 invoices
valued at approximately $6.8 million from the inception of the contract in November 2009
to May 2012 and identified the following:

          12 percent of invoices had hours documented that were outside of the invoice
           billing period or could not otherwise be verified.
          25 percent of invoices included labor categories that did not appear to match
           designated contractor roles or could not be otherwise verified.
          18 percent of invoices did not have a status report period that matched the
           billing period.
          8 percent of invoices did not match job roles listed in the task order or could
           not otherwise be verified.




7
 The database is called the Construction Inspection Program Information Management System. For more
details, see OIG-12-A-16, Audit of NRC’s Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC)
Process, July 12, 2012.
                                                  7
                                       Audit of NRC’s Contract Administration of the EPM Contract


Without specific guidance and the implementation of strong internal controls, there is an
increased risk that potential waste, fraud, or abuse could occur and not be detected prior
to invoice approval and payment.

AGENCY COMMENTS

On August 23, 2012, OIG issued the discussion draft of this report to the Executive
Director for Operations. OIG met with NRC management officials and staff at an August
30, 2012, exit conference, at which time the agency provided informal comments to the
draft report. The informal comments were incorporated into the draft report as
appropriate. NRC management and staff reviewed the revised draft report and agreed
with the findings and recommendations. The agency opted not to provide formal
comments for inclusion in this final report.

RECOMMENDATIONS

OIG recommends that the Executive Director for Operations:

      1. Update Management Directive 11.1 to reflect current contract administration-
      related terminology, including current process flow charts illustrating specific
      contractor invoice review procedures.

      2. Expedite publication of interim guidance that clarifies and updates current
      contract administration-related terminology and processes for invoice review.

      3. Develop and implement an agencywide standard to guide the invoice review
      and approval process with a requirement to routinely evaluate source
      documentation, including but not limited to labor hour time sheets and contractor
      certified payroll records, as appropriate for the contract type and nature of
      services provided.

      4. Using the new agencywide standard, certify the accuracy of invoices received
      from and payments made to the contractor since the inception of Contract # NRC-
      DR-33-10-303 through its closeout.




                                            8
                                       Audit of NRC’s Contract Administration of the EPM Contract


SCOPE AND METHODOLOGY

The scope of the audit was limited to reviewing contract administration practices for
NRC’s contract # NRC-DR-33-10-303 from inception of the contract to August 1, 2012.

The audit included interviews with agency staff from the Office of Administration, Office
of Information Systems, Office of New Reactors, and the Office of the Chief Financial
Officer. OIG also reviewed Federal and agency guidance that outlined the processes
and procedures pertaining to the utilization and oversight of projects using EPM
technologies. Guidance for contract administration and internal controls best practices
were also reviewed. Auditors obtained and examined contract documents and records
that delineate work pertaining to the EPM technologies, system applications, and
projects. OIG reviewed 83 contractor invoices and any documentation supporting
internal control review of costs for systems and projects developed or maintained under
the contract.

OIG conducted this performance audit at NRC headquarters in Rockville, MD, between
April 2012 and August 2012. Internal controls related to the audit objective were
reviewed and analyzed. Throughout the audit, auditors were aware of the possibility or
existence of fraud, waste, or misuse in the program in accordance with generally
accepted Government auditing standards.

We conducted this performance audit in accordance with generally accepted
Government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

The audit work was conducted by R. K. Wild, Team Leader; Jacki Storch, Audit
Manager; Larry J. Weglicki, Senior Auditor; Timothy Wilson, Senior Management
Analyst; and Dana Furstenau, Student Analyst.




                                            9
